          



                                                     


                      Report Fraud, Waste, and 
  
                         
                          Mismanagement

                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :           24‐Hour Toll Free	                800‐424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                            
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:	        www. doioig.gov/hotline
               




                                                                                             
